               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-02312-304




    Combined Assessment Program 

           Review of the 

     Cheyenne VA Medical Center 

        Cheyenne, Wyoming 





September 11, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Cheyenne VA Medical Center
                 FY             fiscal year
                 HPC            hospice and palliative care
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 7

  Coordination of Care – HPC ................................................................................... 8

  Pressure Ulcer Prevention and Management ......................................................... 9

  Nurse Staffing ......................................................................................................... 11


Appendixes
  A. Facility Profile ....................................................................................................      12

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                               13

  C. VISN Director Comments ..................................................................................                  14

  D. Facility Director Comments ...............................................................................                 15

  E. OIG Contact and Staff Acknowledgments .........................................................                            19

  F. Report Distribution .............................................................................................          20

  G. Endnotes ...........................................................................................................       21





VA OIG Office of Healthcare Inspections
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of July 8, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following three activities:

   Environment of Care

   Medication Management – Controlled Substances Inspections

   Coordination of Care – Hospice and Palliative Care

The facility’s reported accomplishments were the Cheyenne VAMC (VA medical center)
and Clinics Planning Model and improvements in the Controlled Substances Inspection
Program.

Recommendations: We made recommendations in the following three activities:
Quality Management: Consistently scan the results of non-VA purchased diagnostic
tests into electronic health records. Ensure all required members participate in
Transfusion Review/Lab Utilization Review Committee meetings.

Pressure Ulcer Prevention and Management: Establish a policy for pressure ulcer
prevention. Establish an interprofessional pressure ulcer committee, and ensure the
committee reports program data to facility executive leadership. Perform and document
a complete skin inspection and risk scale at discharge. Accurately document location,
stage, and/or risk scale score for all patients with pressure ulcers. Perform and
document daily risk scales for patients at risk for or with pressure ulcers. Establish
patient/caregiver and staff pressure ulcer education requirements.

Nurse Staffing: Fully implement the nurse staffing methodology.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided




VA OIG Office of Healthcare Inspections                                                        i
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


acceptable improvement plans. (See Appendixes C and D, pages 14–18, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        i
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
July 12, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
Cheyenne VA Medical Center, Cheyenne, Wyoming, Report No. 11-01297-222,
July 12, 2011).

During this review, we presented crime awareness briefings for 42 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and




VA OIG Office of Healthcare Inspections                                                       1
                                         CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees and
252 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                            Reported Accomplishments

Cheyenne VAMCa and Clinics Planning Model
The Cheyenne VAMC and Clinics Planning Model incorporated Resources, Strategic
Vision/Planning/Initiatives, and Data/Performance Improvement. Identified by the
facility as one of three key FY 2013 strategic initiatives, the model has been
incorporated into every level of decision making. It provides transparency in facility
decision making and empowers service chiefs in the decision making process.

CS Inspection Program
In December 2012, the CS Inspection Program was completely restructured by a newly
appointed CS Coordinator. The goals were a smaller, more efficient, and well-trained
inspection team and concise and understandable reporting and trending. A new training
manual was developed, and one-to-one training was completed with each inspector,
which included hands-on and didactic instruction. Results of CS inspections are
reported to the facility Director and include monthly and quarterly tracking sheets as well
as detailed reasons for discrepancies, analyses, and documented resolutions. CS
inspectors have reported increased satisfaction with the restructured program, and
there has been a decrease in the amount of time spent by inspectors in this
well-organized, concisely reported program.




a
    VAMC stands for VA medical center.


VA OIG Office of Healthcare Inspections                                                          2
                                              CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                               3
                                              CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


 NC            Areas Reviewed (continued)                                    Findings
  X    Appropriate quality control processes were in     Twenty-two EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Five test results were not scanned into the
                                                            EHRs.
 X     Use and review of blood/transfusions              Twelve months of the Transfusion Review/Lab
       complied with selected requirements.              Utilization Review Committee meeting minutes
                                                         reviewed:
                                                          There was no evidence that Medicine and
                                                            Anesthesia Services were represented at
                                                            committee meetings.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.

2. We recommended that all required members participate in Transfusion Review/Lab
Utilization Review Committee meetings.




VA OIG Office of Healthcare Inspections                                                                  4
                                             CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected two CLCs and the intensive care and medical/surgical units. We also inspected
the primary and specialty care clinics, the emergency department, and SPS. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
12 employee training and competency files (7 operating room and 5 SPS). The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC           Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning     
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.




VA OIG Office of Healthcare Inspections                                                              5
                                               CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


 NC          Areas Reviewed for Hemodialysis                                Findings
                          (continued)
 NA    Employees received training on bloodborne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines      
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach      
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines      
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training             
       and competency assessment.
       Operating room employees who performed               
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional                
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                6
                                            CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
9 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The table
below shows the areas reviewed for this topic. Any items that did not apply to this facility are
marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                    Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position descriptions or
       functional statements included duties, and CS
       Coordinators completed required certification
       and were free from conflicts of interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             7
                                              CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 20 employee training records (5 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                     Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                               8
                                              CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 7 EHRs of patients with pressure ulcers (1 patient with a
hospital-acquired pressure ulcer and 6 patients with community-acquired pressure ulcers), and
10 employee training records. The table below shows the areas reviewed for this topic. The
areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                    Areas Reviewed                                       Findings
  X    The facility had a pressure ulcer prevention      The facility had not developed a policy.
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure    The facility did not have an interprofessional
       ulcer committee, and the membership                pressure ulcer committee.
       included a certified wound care specialist.
 X     Pressure ulcer data was analyzed and              There was no documentation that pressure
       reported to facility executive leadership.         ulcer data was reported to facility executive
                                                          leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were             Four of the seven EHRs did not contain
       performed upon transfer, change in condition,      documentation that a skin inspection and risk
       and discharge.                                     scale were performed at discharge.
 X     Staff were generally consistent in                In six of the seven EHRs, the location, stage,
       documenting location, stage, risk scale score,     and/or risk scale score were not documented
       and date acquired.                                 consistently.
 X     Required activities were performed for            Staff did not consistently document
       patients determined to be at risk for pressure     performing daily risk scales in any of the
       ulcers and for patients with pressure ulcers.      seven EHRs.
 NA    Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    9
                                             CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


 NC            Areas Reviewed (continued)                                   Findings
  X    The facility defined requirements for patient     The facility had not developed patient and/or
       and caregiver pressure ulcer education, and        caregiver pressure ulcer education
       education on pressure ulcer prevention and         requirements.
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
 X     The facility defined requirements for staff       The facility had not developed staff pressure
       pressure ulcer education, and acute care staff     ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that the facility establish a policy for pressure ulcer prevention, establish
an interprofessional pressure ulcer committee, and ensure that the interprofessional pressure
ulcer committee reports program data to facility executive leadership.

4. We recommended that processes be strengthened to ensure that acute care staff perform
and document a complete skin inspection and risk scale at discharge and that compliance be
monitored.

5. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, and/or risk scale score for all patients with pressure ulcers
and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily risk scales for patients at risk for or with pressure ulcers and that
compliance be monitored.

7. We recommended that the facility establish patient/caregiver and staff pressure ulcer
education requirements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   10
                                              CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two inpatient units
(acute medical/surgical and long-term care).6

We reviewed relevant documents and 10 training files, and we interviewed key employees. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
  X    The facility completed the required steps to       The staffing methodology was not fully
       develop a nurse staffing methodology by the         implemented.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

8.    We recommended that the facility fully implement the nurse staffing methodology.




VA OIG Office of Healthcare Inspections                                                              11
                                             CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                             Appendix A


     Facility Profile (Cheyenne/442) FY 2013 through May 2013b
Type of Organization                                                         Secondary
Complexity Level                                                             2-Medium complexity
Affiliated/Non-Affiliated                                                    Affiliated
Total Medical Care Budget in Millions                                        $112.5
Number (through June 2013) of:
    Unique Patients                                                         18,349
    Outpatient Visits                                                       159,041
    Unique Employeesc                                                       713
Type and Number of Operating Beds:
    Hospital                                                                22
    CLC                                                                     42
    Mental Health                                                           NA
Average Daily Census:
    Hospital                                                                13
    CLC                                                                     13
    Mental Health                                                           NA
Number of Community Based Outpatient Clinics                                 4
Locations/Station Numbers                                                    Sidney, NE/442GB
                                                                             Fort Collins, CO/442GC
                                                                             Greeley, CO/442GD
                                                                             Cheyenne, WY/442HK
VISN Number                                                                  19




b
    All data is for FY 2013 through May 2013 except where noted.
c
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                             12
                                            CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                            Appendix B


                            VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                     Inpatient Scores                                 Outpatient Scores
                    FY 2012     FY 2013                                   FY 2012
                 Inpatient       Inpatient        Outpatient      Outpatient       Outpatient       Outpatient
                 Score           Score            Score           Score            Score            Score
                 Quarters 3–4    Quarters 1–2     Quarter 1       Quarter 2        Quarter 3        Quarter 4
Facility         67.3            71.4             58.8            59.0             53.1             57.9
VISN             64.3            63.5             51.5            53.0             51.6             52.5
VHA              65.0            65.5             55.0            54.7             54.3             55.0



                        Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.d Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.e

Table 2

                                  Mortality                                     Readmission
               Heart Attack      Heart           Pneumonia       Heart Attack     Heart           Pneumonia
                                 Failure                                          Failure
    Facility   **                10.3            9.5             **               23.9            20.3
    U.S.
    National   15.5              11.6            12.0            19.7             24.7            18.5
    ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




d
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
e
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                          13
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           August 21, 2013 


       From:           Director, Rocky Mountain Network (10N19) 


       Subject:        CAP Review of the Cheyenne VA Medical Center, 

                       Cheyenne, WY

       To:             Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I have reviewed and concur on the submission from the Director,
       Cheyenne VA Medical Center. If you have any questions, please contact
       Ms. Susan Curtis, VISN 19 HSS at (303) 639-6995.




VA OIG Office of Healthcare Inspections                                                      14
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           August 7, 2013

       From:           Director, Cheyenne VA Medical Center (442/00)

       Subject:        CAP Review of the Cheyenne VA Medical Center,
                       Cheyenne, WY

       To:             Director, Rocky Mountain Network (10N19)

       1. The Cheyenne VAMC would like to express our appreciation for the
       opportunity to work with the Office of Inspector General and to review and
       comment regarding the recommendations for improvement contained in
       this report.

       2. Please find attached our response to each recommendation provided
       in this report.

       3. If there are any questions regarding the response to the
       recommendations or any additional information is required, please contact
       Ms. Lisa Adamson, Chief of Quality Management, (307) 433-3621 or at
       Lisa.Adamson@va.gov.




       Medical Center Director




VA OIG Office of Healthcare Inspections                                                      15
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that

the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.


Concur


Target date for completion: September 9, 2013 


Facility response: Processes have been discussed with the Network Authorization 

Office, our partner in non-VA care billing. Implementation of a plan that will directly 

import scanned results is in progress. 


Recommendation 2. We recommended that all required members participate in 

Transfusion Review/Lab Utilization Review Committee meetings. 


Concur


Target date for completion: August 2013 


Facility response: Members have been notified by the Chief of Staff and attendance will 

be tracked and reported to Medical Executive Board and Executive Quality Board until

100% compliance is reported a minimum of three months. 


Recommendation 3. We recommended that the facility establish a policy for pressure 

ulcer prevention, establish an interprofessional pressure ulcer committee, and ensure 

that the interprofessional pressure ulcer committee reports program data to facility 

executive leadership.


Concur


Target date for completion: August 30, 2013 


Facility response: A facility policy has been developed that defines the committee and 

how reporting will be completed. 


Recommendation 4. We recommended that processes be strengthened to ensure that

acute care staff perform and document a complete skin inspection and risk scale at

discharge and that compliance be monitored. 


Concur


Target date for completion: August 30, 2013 



VA OIG Office of Healthcare Inspections                                                      16
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


Facility response: Processes defined in facility policy and monitoring to take place via
medical record reviews and reported through the Medical Records Committee.
Education and competencies have been completed by acute care staff.

Recommendation 5. We recommended that processes be strengthened to ensure that
acute care staff accurately document location, stage, and/or risk scale score for all
patients with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: August 30, 2013

Facility response: Processes defined in facility policy and monitoring to take place via
medical record reviews and reported through the Medical Records Committee.
Education and competencies have been completed by acute care staff.

Recommendation 6. We recommended that processes be strengthened to ensure that
acute care staff perform and document daily risk scales for patients at risk for or with
pressure ulcers and that compliance be monitored.

Concur

Target date for completion: August 30, 2013

Facility response: Processes defined in facility policy and monitoring to take place via
medical record reviews and reported through the Medical Records Committee.
Education and competencies have been completed by acute care staff.

Recommendation 7. We recommended that the facility establish patient/caregiver and
staff pressure ulcer education requirements and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response: Competencies have been completed by appropriate staff and will be
completed annually and monitored by the Nurse Educator.

Recommendation 8.           We recommended that the facility fully implement the nurse
staffing methodology.

Concur

Target date for completion: August 30, 2013

Facility response: A policy has been developed that identifies the processes for nurse
staffing methodology in order to meet all requirements. All members will complete level
1 and 2 training by target date and new members will complete training prior to



VA OIG Office of Healthcare Inspections                                                      17
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY


participation in the workgroup. NHPPD Tracker is in place and tracking and trending
will be reported quarterly to the Nurse Executive Board.




VA OIG Office of Healthcare Inspections                                                      18
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Dulcie, BSEE, Team Leader
Contributors            Stephanie Hensel, RN, JD
                        Randy Rupp
                        Virginia Solana, RN, MA
                        Cheryl Walker, ARNP, MBA
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      19
                                      CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, Cheyenne VA Medical Center (442/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael F. Bennett, Michael B. Enzi, Deb Fischer,
 Mike Johanns, Mark Udall
U.S. House of Representatives: Cory Gardner, Cynthia M. Lummis, Jared Polis,
 Adrian Smith


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      20
                                               CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY
                                                                                               Appendix G

                                                   Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       21
                                               CAP Review of the Cheyenne VA Medical Center, Cheyenne, WY



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                 22
